<html>
<title> - PRESERVING PROGRESS: TRANSITIONING AUTHORITY AND IMPLEMENTING THE STRATEGIC FRAMEWORK IN IRAQ, PART 2</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                   PRESERVING PROGRESS: TRANSITIONING
                AUTHORITY AND IMPLEMENTING THE STRATEGIC
                       FRAMEWORK IN IRAQ, PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                           Serial No. 112-49

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
67-053PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Max Boot, Jeane J. Kirkpatrick Senior Fellow for National 
  Security Studies, Council on Foreign Relations.................     5
Mr. Michael Eisenstadt, Director, Military & Security Studies 
  Program, The Washington Institute for Near East Policy.........    13
Mr. Richard Fontaine, Senior Fellow, Center for New American 
  Security.......................................................    19
Ms. Marisa Cochrane Sullivan, Deputy Director, Institute for the 
  Study of War...................................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Max Boot: Prepared statement.................................     8
Mr. Michael Eisenstadt: Prepared statement.......................    15
Mr. Richard Fontaine: Prepared statement.........................    21
Ms. Marisa Cochrane Sullivan: Prepared statement.................    27

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and chairman, Subcommittee on the Middle East 
  and South Asia: Prepared statement.............................    46

 
   PRESERVING PROGRESS: TRANSITIONING AUTHORITY AND IMPLEMENTING THE 
                  STRATEGIC FRAMEWORK IN IRAQ, PART 2

                              ----------                              


                        THURSDAY, JUNE 23, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The meeting will come to order. Good afternoon. 
I want to welcome all of my colleagues. And we will have more 
coming in as we just had a series of votes on the floor. The 
hearing, this, of course, is the Subcommittee on the Middle 
East and South Asia of the Foreign Affairs Committee.
    We are now approximately 5 months away from the December 
31st, 2011 deadline, when, according to the current Status of 
Forces Agreement with the Government of Iraq, all U.S. armed 
forces must leave Iraq.
    Starting on January 1st, 2012, the State Department will 
take the lead implementing all U.S. policy in Iraq. Earlier 
this month, administration witnesses from the Department of 
State, Department of Defense, and USAID testified before this 
subcommittee about the current plan to transition from a 
Defense lead to a State lead. Regrettably, their testimony 
stoked, rather than allayed, my fears.
    I recently travelled to Iraq, where I was able to see just 
how critical the work of our military continues to be. In 
conjunction with their Iraqi partners on the ground, their hard 
work has helped to set Iraq on the course to becoming a stable, 
secure, and democratic country that respects human rights. That 
certainly is the goal. But even as we celebrate these hard-won 
gains, we must remember that we are not there yet.
    Iraq's recent progress is regrettably as precarious as it 
is positive. We cannot look at where we are today and forget 
where we were just a few years ago.
    And although the administration's transition plan may be 
well-intentioned, I am concerned that it is neither well-timed 
nor well-reasoned. Our brave men and women in uniform have 
fought tirelessly for nearly a decade to get us to where we are 
today. Thousands of American lives have been lost. Billions of 
dollars have been spent.
    The worst possible outcome would be to withdraw our forces 
before Iraq is ready to stand on its own. Yet, the plans that 
the administration has offered to date fall short of what Iraq 
requires to consolidate these gains.
    To quote then-Senator Hillary Clinton, it would require a 
willful suspension of disbelief to believe that Iraq will be 
where it needs to be for us to withdraw by December 31st, at 
least in my opinion.
    It also requires a willful suspension of disbelief to 
believe that the State Department alone, without the help of 
U.S. military forces on the ground, has the capability to 
satisfactorily execute this mission.
    Numerous challenges lay before us in Iraq. Although the 
Iraqi security forces have progressed by leaps and bounds over 
the past several years, it is an undeniable fact that our 
military forces continue to play a vital role on the ground. 
The Iraqis, despite this progress, lack certain core 
capabilities, like the ability to secure their own airspace.
    Our continued presence functions as the ultimate guarantor 
of their security and enables the Iraqi security forces to 
continue to develop.
    Not only do our forces secure Iraq from outside threats, 
but they also alleviate Arab-Kurdish tensions in Iraq's north. 
Our presence effectively allows Iraq's nascent democratic 
institutions to continue to develop, even as the political 
system, as I am sure the testimony here will address, continues 
to experience what we all hope are merely growing pains.
    And although the U.S. has commitments elsewhere in the 
world, we must remain dedicated to achieving success in Iraq. 
There can be no question that it is in both the U.S. and Iraq's 
national interest to see a stable and democratic Iraq emerge 
that is capable of defending itself.
    Such an outcome would offer a model to the Arab world at 
this time of transition. It would stand as definitive evidence 
that the rights to life, liberty, and the pursuit of happiness 
are innate human rights and do not stop at the water's edge. 
This is our strategic objective, and we should do everything in 
our power to ensure it happens, including, if need be, by 
considering an extension of our military presence on the 
ground.
    A greater number of Iraqi political and military figures 
have recently come out in support of extending the deadline to 
withdraw, but, as could be expected, no one wants to foot the 
bill.
    Iraqi domestic politics make it very difficult to outright 
ask the U.S. to remain in Iraq. And, as a result, Iraq's 
leadership is pointing fingers and passing bucks. Yet, despite 
this difficult situation, the only clear message from the 
administration is that we are happy to stay, but the Iraqis 
must openly ask.
    I hope our witnesses today will speak to what we could be 
doing, which we are not, to help encourage the Iraqis to 
request a continued U.S. military presence. The situation 
requires responsible leadership, both in the U.S. and Iraq, 
leadership that can make the right decision even if it is 
unpopular. Again, it would be a failure of colossal proportions 
to seize defeat from the jaws of victory. And, yet, that is 
precisely what I fear may come to pass.
    And at this time, I would like to recognize the gentleman 
from New York, the ranking member of the committee, Mr. 
Ackerman, for 5 minutes.
    Mr. Ackerman. I thank the chairman very much.
    As I tried to suggest at our previous hearing on this 
subject and before that at a hearing convened in the full 
committee in the previous Congress, the Obama administration's 
plans and goals for an enduring American commitment and 
partnership with Iraq are likely unsustainable.
    Following the death of Osama bin Laden, something worth 
recalling with satisfaction, many Americans and, thus, 
naturally many of their elected representatives feel that the 
time has come to wrap up an era of war. The nation's economy is 
struggling. The government's finances are strained. And, most 
critically, the public no longer feels the urgency of war.
    While still content to stand in line for security at 
airports and get scanned and sniffed and have our luggage, et 
cetera, rifled through on occasion, the understanding needed to 
sustain the deployment of our troops and the massive 
expenditures of war is slipping away.
    Even in Iraq, which, quite frankly, never had a thing to do 
with the fight against al-Qaeda, where our combat troops have 
departed and our remaining troops will come home by the end of 
this year, the momentum for our engagement is slacking.
    Iraq in the minds of our constituents and, thus, in the 
minds of many Members of Congress on both sides of the aisle is 
no longer our problem. The Obama administration, however, 
doesn't seem to have gotten the memo and is preparing for a 
very considerable post-conflict engagement, requiring massive 
resources for U.S. diplomats and other officials aiding Iraq in 
its struggle to put itself together.
    Unprecedented security responsibilities are going to be 
passed on to the U.S. mission in Iraq as well as massive and 
ambitious efforts to assist Iraq with its political, military, 
civil society, and governmental and economic development.
    The administration's goal is to avoid repeating the 
mistakes we as a nation made, first in Afghanistan following 
the Soviet withdrawal, and then following the defeat of the 
Taliban. An abandoned Iraq could very easily become a source of 
considerable regional danger and instability as well as a 
target for even greater Iranian efforts at regional subversion 
and hegemonism.
    On the other hand, an Iraq that successfully struggles to 
its feet, that develops a government capable of protecting 
Iraq's sovereignty, and that provides its citizens with the 
services that they require could be a powerful source of 
stability in the Persian Gulf and a check on Iranian ambitions.
    I have said before, and I think it is worth repeating 
because the Obama administration, like its predecessors, 
doesn't seem to understand or believe that when it comes to 
this kind of major international commitment of resources and 
responsibility, nothing explains itself and nothing sells 
itself.
    The basic policy of continuing engagement and support for 
Iraq is a good one. There is more than sufficient reason for us 
to remain actively and extensively engaged in helping Iraq.
    The effort to sell it in Congress, which has to provide the 
money, and the American public, which has to agree that the 
expenditure is justified and worth enduring, can't even be 
described as a failure. To argue the sales job is a failure 
would be to imply that some effort has actually been made to 
sell it, which just isn't true.
    To state the blisteringly obvious, a multi-year, 
multibillion-dollar political-military commitment to a foreign 
nation simply cannot be put on autopilot in a time of economic 
difficulty and fiscal austerity. It won't work, and it 
shouldn't be attempted.
    As bad as failure to support Iraq's development over the 
next few years would be, a sudden collapse of that effort 
because of a collapse of political support here in Washington 
would be infinitely worse, calling into question America's 
reliability as a political and security partner around the 
world. What nation would put its trust in an ally whose 
promises of a long-term enduring relationship collapse in a 
matter of months?
    It gives me no pleasure to say that the Obama 
administration truly is tempting fate with its current approach 
to Iraq, not because the policy they are pursuing is 
strategically unwise or beyond our ability to accomplish but, 
rather, because they have utterly ignored their responsibility 
to develop a sufficient base of political support to sustain 
it.
    A diplomatic surge is necessary in Iraq, but a political 
surge is even more necessary in Washington. Times have changed, 
and politics have changed. And the membership of Congress has 
changed. The only thing that hasn't changed is the 
administration's belief that they can get whatever resources 
they need for Iraq without a sustained and aggressive outreach 
to Members of Congress to explain what they are doing and to 
persuade them of the importance of our efforts.
    As President Nixon's chief economist, Herb Stein, used to 
say, anything that can't go on forever won't. I fear the Obama 
administration is about to learn that lesson the hard way.
    I want to commend the chairman for holding this hearing as 
well as its predecessor. And I look forward to hearing from our 
distinguished expert witnesses. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    And we appreciate our very distinguished panel here this 
afternoon, the other members. Did you want to make a statement?
    Mr. Higgins. Just what----
    Mr. Chabot. Go ahead. Go ahead.
    Mr. Higgins. No. Let's get to the testimony. Then I can. 
Thank you.
    Mr. Chabot. Okay. We will get to it in the questions, then. 
As I indicated, we have a very distinguished panel. I would 
like to do the introductions at this time.
    First we have Max Boot. He is the Jeane J. Kirkpatrick 
Senior Fellow in National Security Studies at the Council on 
Foreign Relations as well as contributing editor to the Weekly 
Standard, a great publication in my opinion, and the Los 
Angeles Times. He also serves as an adviser to U.S. commanders 
in Iraq and Afghanistan and was a senior foreign policy adviser 
to Senator John McCain's Presidential campaign.
    Before joining the Council in 2002, Mr. Boot was the op. 
ed. editor of the Wall Street Journal. He has an M.A. in 
history from Yale University and a B.A. in history from the 
University of California at Berkeley. We welcome you this 
afternoon.
    Then we next have Michael Eisenstadt, who is a senior 
fellow and director of the Washington Institute's Military and 
Security Studies Program. Mr. Eisenstadt earned an M.A. in Arab 
studies from Georgetown University.
    Prior to joining the Institute in 1989, Mr. Eisenstadt 
worked as a military analyst. He also served for 26 years as an 
officer in the United States Army Reserve. And, on behalf of 
the subcommittee, I would like to say thank you for your 
service to the country, Mr. Eisenstadt.
    Next we have Richard Fontaine, who is a senior fellow at 
the Center for a New American Security. He previously served as 
foreign policy adviser also to Senator John McCain. He has also 
worked at the State Department, the National Security Council, 
and on the staff of the Senate Foreign Relations Committee, and 
Senate Armed Services Committee.
    Mr. Fontaine has an M.A. in international affairs from the 
Johns Hopkins School of Advanced International Studies and a 
B.A. in international relations from Tulane University. We 
welcome you here this afternoon.
    And, finally, we have Marisa--is it Cochrane?--okay, 
Sullivan, who is a deputy director of the Institute for the 
Study of War and supervises the Iraqi and Afghanistan projects 
as well as conducts research on Iraqi political dynamics, Shia 
militia groups, and the security environment in central and 
southern Iraq.
    Ms. Cochrane Sullivan previously served as the command 
historian for the Multinational Force Iraq and has appeared as 
a commentator on Iraq-related issues for the Voice of America, 
Los Angeles Times, Fox News, and other media outlets. She holds 
a B.A. in international studies from Boston College. And we 
welcome you here as well.
    As far as the rules of the committee, you will all receive 
5 minutes. And there is a lighting system. The yellow light 
will indicate you have 1 minute to wrap up. If the red light 
comes on, we would appreciate it if you would complete your 
testimony at that time. And we also limit ourselves to the 5 
minutes to ask questions.
    So, Mr. Boot, you are first. You are recognized for 5 
minutes.

 STATEMENT OF MR. MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW 
  FOR NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Well, thank you very much, Mr. Chairman, for 
calling this hearing to call attention to it. I think all of us 
probably agree it is one of the most important, yet least 
recognized, foreign policy issues that we confront in the next 
6 months while Libya, Afghanistan, and many other conflicts get 
headlines for understandable reasons.
    I think you are quite right to point out the central 
importance of Iraq and the need to have a good outcome to that 
conflict, which has already cost so many American lives, which 
has cost also so much American treasure. None of that we want 
to see go to waste.
    I think the way we prevent that from going to waste is 
exactly along the lines of what you suggested as we need to 
have continued engagement in Iraq. And I don't think it can be 
exclusively diplomatic engagement because the situation there 
is still too fragile. I mean, if you look at other post-
conflict situations, such as Bosnia or Kosovo, if you go back 
further to Germany, Japan, Italy, and many others, the key to 
long-term stability has been long-term security provided by an 
American troop presence or by some other international 
peacekeeping presence.
    Iraq has come a long way since the terrible days of 2006-
2007, when balance was tearing the country apart. But those 
tensions have not fully healed. The suspicions still run high.
    I was struck by the fact that when I was last in Iraq in 
March, I arrived in the middle of yet another crisis between 
the Iraqi security forces and the Kurdish pesh merga. Of 
course, this is nothing unexpected because pretty much every 
single time I have traveled to Iraq--and I have traveled there 
once or twice a year since 2003--pretty much every single time 
I arrive, the pesh merga and the Iraqi security forces seem to 
be on the verge of shooting it out with one another.
    And what prevents that from happening is the fact that U.S. 
forces are sitting in the middle and the fact that U.S. 
officers are trusted interlocutors for both sides, and they can 
bring the two sides, who would not otherwise speak to one 
another, they can bring them together in a room and get them to 
hash out their differences before an actual shooing would 
erupt.
    And, of course, there are many other tensions that lie not 
so far beneath the surface of Iraqi politics; whereas, we see 
terrorist attacks by al-Qaeda in Iraq as well as by Shiite 
groups and other Sunni groups as well continue to occur, 
continue to cost Iraqi lives.
    It is a very stable, very fragile situation. And I am very 
concerned about what would happen if U.S. troops were to pull 
out entirely at the end of the year. I think that would be a 
catastrophe for Iraq. And it would be a catastrophe for 
American foreign policy.
    It would make it impossible to achieve our goals in Iraq, 
which are to have a country that is a moderate ally in the 
Middle East and exemplar of democratic values and a bulwark of 
stabilization and moderation.
    All of that is enabled by an American troop presence going 
forward, I believe. It doesn't have to be a huge troop 
presence. I would be comfortable with something on the order of 
20,000 troops. I think the administration is probably looking 
at somewhere around the order of 10,000. Even that is far, far 
better than zero.
    The time is running out, as you know. By mid September, 
U.S. troops are going to be on a fast track out of Iraq. And to 
bring them back after that will be costly financially. It will 
be costly in terms of deployment schedules. And it will also be 
very difficult to do politically.
    Now, the problem is as we know, the last time we negotiated 
a Status of Forces Agreement with Iraq, which was in 2008, it 
took more than 1 year. Right now we have less than half a year 
before the lights go out and considerably less than that before 
the troops start pulling out en masse.
    Now, I think you are quite right to note that there has 
been some progress, that Prime Minister Maliki I think has 
indicated that he would be interested in having American troops 
there. And I think the Obama administration has finally made a 
decision that it is in our interest to have American troops 
there as well. They are tardy in this regard, and I wish they 
had been lobbying and pushing on that issue 1 year ago but 
better late than never.
    The question is whether we can get a deal done in time. 
And, as we have seen in Iraq time and time again, since 2003, 
nothing ever comes together when you want it to. It always goes 
into the 11th hour and sometimes frequently beyond.
    I think Mr. Ackerman raises a very good point as well when 
he talks about the lack of political groundwork which has been 
laid in this country, to say nothing of the political 
groundwork in Iraq and, really, either country by the two 
governments to sustain political support for a continuing 
American presence. This is really an issue I think.
    Although the decisions our President Obama has made have 
been fairly responsible, he has really been AWOL in terms of 
advocating for those decisions and advocating for a greater 
American presence in Iraq.
    And, you know, I think there is still support on the Hill, 
and I think there is still support in the country for a larger 
presence. However, a lot more needs to be done to explain why 
it is necessary, why it is in our interest. And Prime Minister 
Maliki has a huge selling job, obvious, an even bigger selling 
job in Iraq to bring the other political factions on board so 
they don't spend their time simply embarrassing him but act in 
the greater Iraqi good, which requires, I believe, a longer-
term American troop presence.
    I think we can get it done, but time is running out. And I 
am very concerned about the consequences of failure.
    [The prepared statement of Mr. Boot follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Complete? Okay. Thank you very much. We 
appreciate your testimony.
    Mr. Eisenstadt, you are recognized for 5 minutes.

   STATEMENT OF MR. MICHAEL EISENSTADT, DIRECTOR, MILITARY & 
  SECURITY STUDIES PROGRAM, THE WASHINGTON INSTITUTE FOR NEAR 
                          EAST POLICY

    Mr. Eisenstadt. Chairman Chabot, Ranking Member Ackerman, 
and members of the subcommittee, thank you for inviting me here 
to testify about Iraq. And on behalf of all those who care 
about Iraq and its future, thank you for keeping Iraq in the 
public eye.
    Ongoing violence in Iraq, albeit at much lower levels than 
in the past, underscore the fact that the United States still 
faces major challenges to realizing its long-term policy 
objectives there.
    These events underscore that security is still job number 
one for the United States and the Government of Iraq. In this 
vein, the ongoing activities of Iranian supported special 
groups, groups such as JRTN and al-Qaeda, show that there is 
still too much to be done here.
    The intensified activities of Iranian supported special 
groups, which have ramped-up attacks on U.S. personnel in 
recent months, are a special source of concern. While it may be 
unrealistic to expect Prime Minister Nouri al-Maliki to speak 
out openly against these Shiite special groups since some of 
these groups have ties to some of his coalition partners, it is 
essential that his actions demonstrate that the Government of 
Iraq is a full partner in efforts to target these groups. 
Maliki's willingness to do so will be a litmus test of the kind 
of relationship the U.S. can have with an Iraq under his 
leadership.
    The U.S. role will face a range of additional challenges in 
the coming years: First, countering Iranian influence. Iran's 
attempts to wield its influence in Iraq have thus far yielded 
only mixed results, and the impending U.S. military drawdown or 
withdrawal from Iraq will present new opportunities for Iran to 
enhance its influence.
    It remains to be seen whether Iranian influence will 
continue to be self-limiting or whether this emerging reality 
will create new opportunities for Teheran to transform Iraq 
into a weak client state via a gradual process of 
Lebanonization.
    Thus, while assessments of Iran as the big winner in Iraq 
are premature, they may yet prove prescient if the United 
States does not work energetically to counter Iranian influence 
there in the years to come.
    U.S. interests in Iraq can be advanced only if the United 
States continues to engage Iraq on a wide variety of fronts, 
diplomatic, economic, informational, and military, and to 
counter Iran's whole-of-government approach to Iraq with a 
whole-of-government approach of its own. And I have some ideas 
in the paper I have submitted on what the U.S. should be doing 
there.
    Secondly, a business surge for Iraq. The strategic 
framework agreement commits the United States and Iraq to a 
broad-based relationship. One of the most important elements of 
this relationship is trade and investment, which can provide 
Iraq's citizens with a modicum of prosperity, and help counter 
Teheran's efforts to establish a relationship of economic 
dependency that will enhance its leverage over Baghdad. Here 
U.S. actions lag behind words.
    At present, there are only two Commerce Department 
officials in Embassy Baghdad to facilitate business in Iraq. 
This needs to change. Moreover, the U.S. Government should 
provide tax incentives for companies investing directly in Iraq 
and do a better job of informing businesses of the range of 
insurance products available to help diffuse the risk of doing 
business there.
    Third, preventive diplomacy and peacekeeping. The U.S. 
military continues to play a critical role in managing tensions 
between the Federal Government in Baghdad and the Kurdistan 
Regional Government, centering on the City of Kirkuk, and the 
so-called disputed internal boundaries areas.
    Should the Government of Iraq ask the U.S. to maintain a 
military presence in Iraq beyond the end of this year, keeping 
these troops in place would not be a high price to pay for 
keeping the peace in Iraq. Now, we know we are talking, really, 
about 1,500 people in all engaged in these activities.
    Fourth, upgrading ties with the Kurdistan Regional 
Government. The U.S. has an enduring interest in the continued 
stability of the KRG. Recognizing its importance for the 
stability of Iraq, Washington should take a few modest steps to 
upgrade ties and intensify direct contacts with the KRG and its 
security forces.
    Furthermore, it should encourage U.S. businesses to use the 
KRG as a base of operations for activities in north central 
Federal Iraq and press the KRG to embrace political reforms 
that will ensure continued stability in the north. In doing so, 
the U.S. will need to be careful to strike a balance between 
supporting the KRG, on one hand, without feeding unrealistic 
aspirations Kurdish aspirations, for independence.
    And then, fifth and finally, national reconciliation. Iraq 
will have a better chance of avoiding another civil war if it 
goes through a formal national reconciliation process. For now, 
hopes have been pinned on reconciliation through politics, in 
which a broad-based governing coalition would give elements 
from every community a stake in the political order. Instead, 
Iraqi politics since the 2010 elections have exacerbated 
sectarian grievances, while recent heavy-handed Government of 
Iraq actions against peaceful protestors inspired by the Arab 
Spring have reopened old wounds.
    Washington should, therefore, press the Government of Iraq 
to permit peaceful protests and to investigate and, if 
necessary punish alleged human rights violations by its 
security forces. And it should indicate to the Government of 
Iraq that the quality of the U.S.-Iraq relationship will be 
influenced by the Government of Iraq's adherence to 
international human rights standards.
    Meanwhile, the U.S. Embassy should work with the Government 
of Iraq, international and Iraqi nongovernmental organizations, 
and the United Nations to draw up a blueprint for a national 
reconciliation process that incorporates lessons from elsewhere 
but that also reflects Iraqi cultural values, preferences, and 
political realities.
    Thank you.
    [The prepared statement of Mr. Eisenstadt follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Fontaine, you are recognized for 5 minutes.

 STATEMENT OF MR. RICHARD FONTAINE, SENIOR FELLOW, CENTER FOR 
                     NEW AMERICAN SECURITY

    Mr. Fontaine. Mr. Chairman, Ranking Member Ackerman, and 
members of the subcommittee, thank you for the privilege of 
testifying today. It is an honor to be here.
    Though America's mission today in Iraq garners little 
attention from a public understandably preoccupied by the 
domestic economy, wars in Afghanistan and Libya, and other 
matters, 2011, nevertheless, remains a pivotal year in Iraq. 
This year's planned transition, combined with the ongoing flux 
in Iraqi domestic politics, will play a key role in shaping 
events in Iraq and in the region for years to come.
    And, as our attention shifts, as we are spending a minute 
just to remember what our interests are in the successful 
outcome of the operations we have conducted in Iraq, Iraq 
remains a major player in the Middle East, and it will serve as 
a force for regional stability or instability in the future.
    Since the Gulf War some 20 years ago, Iraq has at various 
points served as a locus of regional competition, an arena for 
Iranian influence, a home for al-Qaeda, and the venue for an 
emerging democracy.
    After all of this turmoil, Iraq now has the potential to 
anchor stability in a region of critical importance to the 
United States. But the converse is also the case. An Iraq that 
returns to chaos and upheaval would quickly revert to a 
sanctuary for al-Qaeda in Iraq and see the reemergence of 
sectarian militias, invite further Iranian meddling, impose 
tremendous human costs on the Iraqi people, disrupt key oil 
supplies, and strengthen the hand of those who argue that only 
strongmen, and not democratic governance, can hold together 
fractious Arab states.
    As December 31st looms, we can best secure our interests by 
retaining a modest American military presence in Iraq. 
Currently the Iraqi Air Force can't patrol the country's air 
space, and the
    Navy cannot defend its waters, including its oil platforms.
    The U.S. military assists Iraq security forces with 
intelligence, training, logistics, and maintenance, all of 
which are critical to the ability to counter internal threats, 
such as al-Qaeda and Shia militia groups, both of which remain 
active.
    Critically, American Kurdish and Arab troops work together 
at checkpoints along the disputed border areas of Iraq's 
northern provinces. In the past, the presence of U.S. troops 
has been vital to preventing eruptions of hostilities between 
Arab and Kurdish security forces.
    The United States should continue to unambiguously signal 
to the Iraqi leadership its willingness to secure a follow-on 
agreement that would permit American troops to remain in Iraq 
after 2011. But it must also be willing to accept that an Iraqi 
response, should it come, will generate lengthy and messy 
negotiations. Indeed, it is conceivable to me that an Iraqi 
request for a continued American presence could even come after 
December 31st. American officials will need to exhibit 
significant patience and creativity through this process.
    If it is impossible to secure a follow-on agreement, the 
State Department will embark on a difficult, ambitious mission, 
truly unprecedented in its history and will manage thousands of 
contractors to take on jobs formerly performed by the military. 
This, to say the least, will also demand even more patience and 
creativity.
    In either event, the State Department will have a key 
diplomatic role to play. The existential threat to the Iraqi 
state today stems not from insurgence but from the country's 
political decisions. America's diplomats must maximize their 
leverage within democratic constraints to urge Iraqi 
politicians to make decisions with the interests of the country 
in mind, rather than faction or personality.
    There is also, I believe, a role for America's political 
leadership as well. Iraq has become the forgotten war. And with 
this has come the impression among many that the fight is over. 
But, as we are discussing here today, in fact, the mission 
continues. And it is incumbent on the President and other 
national leaders to articulate for Congress and for the 
American people the stakes in Iraq, our strategic interests 
there, and why securing those interests is worth the additional 
cost in blood and treasure after all these many years.
    The road in Iraq has been long and extraordinarily costly. 
Just 3 years ago, the debate about the war was about how to 
mitigate the worst consequences of possible defeat. With the 
dramatic changes since then, however, we can legitimately 
discuss the extraordinary opportunity to see a stable, secure, 
prosperous, and imperfectly democratic Iraq emerge in the 
Middle East. Now is not the time for America's commitment to 
that outcome to waver.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fontaine follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Ms. Cochrane Sullivan, you are recognized for 5 minutes.

  STATEMENT OF MS. MARISA COCHRANE SULLIVAN, DEPUTY DIRECTOR, 
                 INSTITUTE FOR THE STUDY OF WAR

    Ms. Cochrane Sullivan. Thank you, Chairman Chabot, 
Representative Ackerman, and distinguished committee members, 
thank you for holding this hearing and inviting me before you 
today to testify.
    Today I would like to highlight some remaining challenges 
discussed in greater detail in my prepared statement and why 
these issues are more important to our engagement in Iraq and 
work to extend the presence of U.S. forces beyond 2011. But 
before I do so, I think it is useful to say why Iraq matters to 
the United States.
    The United States has important and enduring national 
security interests in Iraq. As my colleagues have mentioned, 
Iraq is a pivotal state at the crossroads of the Middle East. 
And for the first time in decades, it can play a stabilizing, 
not destabilizing, role in an increasingly turbulent region.
    Iraq has vast oil and natural gas reserves, which if 
properly stewarded over the next decade could make Iraq the 
economic powerhouse of the Middle East and greatly increase the 
world's energy supply.
    Iraq's military has built close ties with the U.S. 
military. And its counterterrorism forces are some of the best 
in the region. This makes Iraq an important ally in the fight 
against terrorist groups.
    A strong U.S. partnership with Iraq is an important 
counterweight to growing Iranian regional ambitions. There is 
no doubt that Iran will seek to fill the political, economic, 
and security vacuum left in Iraq should the United States 
completely withdraw its forces.
    And, lastly, within the context of the Arab Spring, Iraq is 
an important test of President Obama's stated commitment to 
supporting democratic transitions in the Middle East. President 
Obama laid out his objectives shortly after taking office. He 
called for the United States to work to promote an Iraq that is 
sovereign, stable, and self-reliant with a government that is 
just, representative, and accountable, and that provides 
neither support nor safe haven to terrorists. We have made 
substantial progress toward achieving these objectives. But our 
work is not yet done in Iraq.
    On the political side, there are two key challenges that I 
see. First, Iraq's Government is fragile, deeply divided, and 
characterized by mistrust. The concept of a national 
partnership government advocated by the Obama administration 
has proved flawed. Though the size of the government and many 
positions were created to satisfy Iraqi politicians, many of 
these positions are ill-defined. And some are extra-
constitutional.
    The process of government formation focused more on 
dividing spoils, rather than on sharing power. It added more 
seats at the table without addressing the underlying 
disagreements between parties, making consensus even more 
difficult to achieve.
    Not surprisingly, Iraq's Government has made little 
meaningful progress on security, economic, or political issues 
since its formation in December 2010.
    Second, Prime Minister Nouri al-Maliki's centralization of 
power has prompted real concerns for Iraq's democratic 
transition and rule of law. Prime Minister Maliki now has 
unprecedented control over Iraq's security forces.
    Not only is he the commander in chief of the armed forces, 
but he has been serving as the acting Minister of Defense, 
acting Minister of Interior, and Minister of Intelligence for 
more than 6 months. In recent months, there have been a growing 
number of cases where security forces controlled by the prime 
minister have been used to suppress dissent and target 
political opponents.
    There are also three key security challenges: Al-Qaeda in 
Iraq and other Sunni groups, though significantly degraded, are 
still able to conduct attacks and undermining the Iraqi 
Government. And Iranian backed Shia militia groups are growing 
increasingly active in central and southern Iraq. In recent 
months, they have stepped up their attacks against U.S. forces 
as well as Iraqi Government and security officials.
    Lastly, Iraqi's security forces still lack capabilities 
required for Iraq's external defense. But it is precisely 
because of these many challenges and the importance of Iraq 
that we must work to extend the U.S. troop presence and enhance 
our diplomatic engagement.
    Our experience in Iraq has shown that progress comes 
through increased engagement of which an enduring troop 
presence is a critical part. American forces are still an 
important check on political violence and terrorism.
    In addition to providing the necessary training, U.S. 
troops also bolster the professionalism of the Iraqi security 
forces, thereby safeguarding Iraq's democratic process. An 
extension of a small number of U.S. forces can also help ensure 
that our diplomats can do their work without costing as much as 
a contracted security force.
    An extended military presence will require a new security 
agreement. And this will not be easy. It will entail extensive 
negotiations to build consensus for an agreement.
    U.S. officials have maintained that no negotiations can 
begin until Iraq formally asks for an extension. This posture 
inadvertently reduces the likelihood of an agreement because it 
will not prompt timely action by the Iraqis. The United States 
must fulfill its leadership responsibilities by guiding the 
discussion of the security agreement renegotiation.
    Progress is possible in Iraq. In 2006, most people thought 
Iraq was lost, but it was pulled back from the brink, thanks to 
the determined efforts of our military forces and the able work 
of our diplomats. Their efforts help stabilize Iraq and pave 
the way for successful elections in 2009 and 2010. It is, 
therefore, important to consolidate these gains that have come 
at such a cost.
    Thank you.
    [The prepared statement of Ms. Cochrane Sullivan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              


    Mr. Chabot. Thank you very much. I want to thank all of the 
panel. We will now go into the questioning by the members up 
here, and we will each get 5 minutes as well. Mr. Fontaine, I 
will begin with you if I can.
    In your testimony, you stated that the planned State 
Department-led operation is ``unprecedented in the history of 
the U.S. Department of State. And we should expect significant 
challenges as the Department implements this ambitious 
program.''
    My question would be, does the State Department have the 
requisite skill set to undertake a mission of this size and 
nature to ensure that the gains already made in Iraq are not 
lost?
    And, just to mention this, I have been to Iraq three times, 
most recently about 1 month ago. And, you know, we were told 
there were 47,000 I believe boots on the ground still then, I 
think under 50,000 security civilian personnel. And by the end 
of the year, they are supposed to be down from a high of 
170,000. We are now at 47,000 down to 157. And it was just 
pretty amazing. And I don't think anybody expects that that is 
going to be it. Unless we reach some agreement, that is where 
we are supposed to be down to.
    So I would love to have your comments.
    Mr. Fontaine. Well, first of all, there are things that the 
State Department and its contractors will not be able to do 
when the military is gone. So some of the checkpoints, for 
example, along the border between the Kurdish provinces and the 
Arab provinces, those have been manned by American security 
forces. It is inconceivable that either State Department or 
contractors are going to be there for that. So there is a 
sector of activity that just cannot be done if the military is 
not there.
    For the stuff where we would find work-arounds or put 
contractors on it, one of the key aspects of this is the State 
Department's ability to manage those contractors. The 
Department of Defense has learned a lot since 2001 and 2003 in 
managing its contractors on the battlefield. And it still has 
some pretty significant problems of capacity.
    The State Department is in a much bigger hole that it is 
trying to dig out of. Contract management has never been in the 
core competency of the U.S. Department of State. The Commission 
on Wartime Contracting, SIGR and various other reports have 
documented some of the problems State Department is having in 
trying to ramp up so they can manage maybe 14,000 contractors 
once it gets into Iraq. And that is going to be a very, very 
difficult thing for them to do.
    Mr. Chabot. Thank you very much.
    Mr. Boot, if I could go to you next? You stated in your 
testimony that you are ``skeptical that any agreement can be 
reached by December 31st if the U.S. or Iraqi Governments 
insist on submitting it for ratification.'' What alternatives 
are there? And what do you actually expect to happen here?
    Mr. Boot. I don't think there is any obligation for the 
Government of Iraq to submit an agreement for ratification to 
their own Parliament, that is something that Maliki may want to 
do to provide political topcoat for himself, but, you know, I 
mean, most of our status of force agreements around the world 
are not ratified by legislatures.
    Most of them are not even public. They are government-to-
government deals, which is certainly within the realm of legal 
possibility here. The question is whether it is in the realm of 
political possibility. And I think we need to push for that if 
we are going to get a deal done.
    Another possibility would be to do some kind of interim 
deal, maybe for a year or 2, that would be basically a stop-gap 
measure so we wouldn't have to pull every last trooper out on 
December 31 and then take more time in order to negotiate a 
broader deal that might, in fact, be ratified by the Iraqi 
Parliament.
    But if we are going to expect the Iraqi Parliament to act 
by December 31, my prediction is we are going to be 
disappointed.
    Mr. Chabot. Thank you.
    I have only got 1 minute and 20 seconds here. Ms. Sullivan, 
I will go to you last here. And I will get back to you on the 
second round, which we will probably get a second round since 
we don't have a huge number of members here this afternoon.
    In your testimony, you suggested that the United States 
needs to assume a more proactive and leading role to engage 
Iraq's leaders and articulate the importance of an extended 
troop presence in Iraq. U.S. officials should adapt an 
integrated and bottom-up approach that builds confidence and 
consensus among Iraq's various political blocks.
    What specifically should Congress and the administration be 
doing to achieve this end?
    Ms. Cochrane Sullivan. There are a couple of things 
quickly. And then we are running out of time. While Maliki is 
important to the agreement, it is unlikely that he is going to 
act on his own given the political realities in Iraq.
    So it is very important for U.S. diplomats and U.S. 
officials to not just engage with him but engage with the other 
power brokers in Iraq so that they can also come to a consensus 
and that Maliki knows that he has broader backing for an 
agreement so that if he is going to take this political risk, 
he is doing it knowing he has got some backing.
    I think the other thing, too, is that the Iraqis need to 
understand, it needs to be communicated by the Obama 
administration and by Congress that the United States does care 
about Iraq, that Iraq matters and it matters at the highest 
levels, too.
    So thank you.
    Mr. Chabot. Okay. Thank you very much. My time has expired.
    The gentleman from New York, the ranking member, Mr. 
Ackerman, is recognized for 5 minutes.
    Mr. Ackerman. This panel has done a terrible thing keeping 
exactly within their time constraints, setting us an example.
    It seems to me that looking at this, it is like a bad movie 
about a terrible marriage in which, you know, she is throwing 
him out but needs him to stay and he's insisting on leaving, 
``But please beg me to remain'' kind of thing and then trying 
to figure out what to do. ``I am going to keep this together 
for the sake of the kids,'' who will grow up to be 
dysfunctional anyway.
    I have noticed sometimes when you drive along the highway 
or even pull into the airport there is a police car that you 
see up ahead on the side. And it is not until you are passing 
it you realize there is nobody in it, but everybody slows down. 
And it serves a great function.
    Is that what we are doing in Iraq, pulling out the troops 
but staying there? Do they need our sense of presence more than 
our presence? Mr. Eisenstadt?
    Mr. Eisenstadt. Yes. If I could, you know, to answer that 
question, we have talked about--some numbers have been thrown 
out in terms of the number of troops that maybe would be 
desirable to be there. But except for the counterterrorism 
forces that we have there and the forces around Kirkuk and 
disputed internal boundaries areas, I think our presence is 
merely of symbolic importance.
    And I think the numbers are less important than the very 
fact that we are willing to have people on the ground there 
after the end of this year as a demonstration, a tangible 
demonstration, of our commitment to the stability of the Iraqi 
Government and the continuation of democratic governance there.
    So let me just say I think it is very important that we 
show our willingness to continue to stay, but I think senior 
officials, such as the Secretary of Defense and the chairman of 
the Joint Chiefs of Staff, have already laid this marker down.
    And I would argue that, in the Middle Eastern market, just 
like in romance, it is best not to show too much interest, at 
least publicly and openly. When you go into a store in the 
market, if you show too much interest in the vendor's wares, he 
knows he has you over a barrel. And he will get a favorable 
deal from his point of view.
    So I would argue that it is best not to on a public level 
show too much enthusiasm and also from the point of view of 
Iraqi politics. And making it easier for Maliki to make the 
sale, I would argue that it is best that we not show too much 
public interest and we work with our partners in Iraq, 
especially the members of the Iraqi Security Forces, to help 
them to make the arguments they need to make to their 
politicians for why the United States needs to stay beyond the 
end of the year and let them for the most part, for the most 
part, do the carrying of the water.
    Mr. Boot. Could I just add one thing to what Michael just 
said,----
    Mr. Ackerman. Sure.
    Mr. Boot [continuing]. Which is that, I mean, I largely 
agree with him that it is primarily of symbolic importance that 
we stayed, but there are real issues of troop size and 
capability because Iraq is still a dangerous place. We were 
reminded of that recently when six American soldiers lost their 
lives at a base in Baghdad when they were shelled by the 
special groups.
    We know that the Iranians and their proxies are going to 
come after our forces. They want to create a Lebanon-like 
situation where they can create the perception that they had 
driven us out like the Israelis were driven out of Lebanon. 
They want to create American casualties and keep that in the 
headlines.
    And so we have to make sure that we don't send such a small 
force that it is unable to defend itself. And that is one of my 
concerns about the State Department and their contractors.
    I don't know if they are going to be able to defend 
themselves. I am concerned that they would have to hunker down 
in Baghdad and not be able to get out in the country, not be 
able to keep their presence.
    And so whatever force we send has to be large enough to be 
self-sustaining, including the security realm. And that is why 
I am saying maybe closer to 20,000, but 10,000 is fine. But 
just we have to be careful not to make it too small.
    Mr. Ackerman. There's no way we can make an argument or 
anybody can really say that we are at war there?
    Mr. Boot. I think it is primarily a peacekeeping role, but 
even peacekeepers have to be able to defend themselves against 
terrorist attacks.
    Mr. Ackerman. It seems to me some time ago Iraq was 
something that we conjured up and it morphed from something 
else basically to stand up to Iran. Is there a chance that they 
are going to continue doing that?
    Mr. Eisenstadt. Well, the relationship with Iran is very 
complex. And I think it would be unhelpful at this point to try 
to push them to stand up to Iran. Right now, you know, they 
lack, I think, the confidence and the ability, both in terms of 
their military capabilities, in terms of the robustness of 
their economy to do so.
    I think, though, if you look at the polling data, by and 
large, there still is a very strong sense of Iraqi national 
identity and great distrust of Iran. I think that will come 
naturally on its own. There is no need for us to go in that 
direction.
    Mr. Ackerman. So we are leading, and we don't like that 
they are flirting with someone else?
    Mr. Eisenstadt. Well, they are going to flirt. The fact of 
the matter is Iran is their neighbor, and they are going to 
play footsie. And they are going to have a relationship.
    You know, the key political parties have longstanding ties. 
There are economic relations that are going to continue. And 
there is a religious influence. That is going to continue. But 
I think they would prefer to have the United States to ply off 
against Iran. And we should be ready to fill that role.
    If I could just add on the point that Max made, we are in 
agreement, I think. I said we need to have a very robust 
counterterrorism capability there to provide force protection 
to go after the bad guys, so no doubt about that. You need to 
have a very robust capability in that area.
    Mr. Ackerman. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    Having just celebrated, my wife and I, our 38th anniversary 
yesterday, I want to thank the gentlemen for their advice on 
marriage and flirting and footsie and the rest here. I never 
thought we would get into that on Iraq, but we celebrated, by 
the way, 600 miles from each other because she is back in 
Cincinnati. I am in Washington.
    That being as it may, we will recognize the gentleman from 
New York, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Continuing with this theme of flirtation, you know, I have 
been to the region several and I always walk away with a 
similar feeling. And that is that the Americans get played.
    There is a discussion that goes on when the Americans are 
in the room and a discussion that goes on when the Americans 
are out of the room.
    This constant flirtation with Iran is disturbing to me. And 
this whole 8 years in Iraq, it seems like the goalposts are 
always being moved.
    Remember when the surge was called for in November 2007, it 
was done for a specific purpose. And that was to try to tamp 
down violence with additional troops but also changing the way 
the troops were used, leaving them out of forward operating 
bases into the neighborhoods, trying to have respectful 
relations with the communities so as to make, really, the 
insurgency irrelevant.
    Militarily the surge worked. Violence was considerably 
tamped down. But the political settlement that was supposed to 
come with that, that breathing space, to allow the various 
factions, the Shia, the Kurds, and the Sunnis, to resolve their 
differences relative to the sharing of oil revenues, relative 
to political reconciliation, relative to disputed areas in the 
north, like the City of Kirkuk, that hasn't occurred.
    And, you know, my sense is that we were supposed to have 
left Iraq this summer. And the Iraqis asked us to stay. And we 
are staying on until the end of the year at least. And my sense 
is that this is just a continuing drama that is played out with 
really no end.
    Help me better understand this because I think, as previous 
speakers have referenced, the American people are tired of 
this. Members of Congress, both sides, are tired of this. And 
if there is not a commitment on the part of those who have to 
provide resources to this effort, this effort cannot be 
sustained. And my concern is that if we are here for another 
couple of years in Iraq, that it really won't change much.
    Finally, let me just say this. I remember my first trip to 
Iraq was in the Summer of 2006. And there was an individual 
there by the name of Ahmad Chalabi. Chalabi was somewhat of a 
charismatic figure. He was educated in the United States, Ph.D. 
in mathematics, and just seemingly an anomaly that a lot of 
people put a lot of confidence in.
    Well, eventually Chalabi had alienated the American 
administration and the American military. And now Chalabi has 
reemerged in Iraqi politics as a pro-Iranian figure. And this 
is the situation that we are dealing with here. It doesn't seem 
as though we are making the kind of political progress with all 
of those existential political issues that was identified as 
needing to be resolved in order to make forward progress.
    We did our part militarily. We provided that breathing 
space from which a political settlement could be achieved. The 
political settlement has not been achieved, and I don't see 
promising signs that it is going to be achieved any time soon.
    So, with that, anybody can take it, but that is mien.
    Mr. Fontaine. Maybe it is not the smart thing to do, but I 
will take a short. You are right, Congressman, that the search 
didn't resolve all of the political problems that exist in 
Iraq, but it did enable a lot of political activity to take 
place that wasn't taking place before and get Iraq politically 
to a different place than it was, a much better place.
    So, for example, in 2006 and 2007 and even in 2005, 
political discourse was essentially manifested through the 
barrel of a gun or an IED or a bomb. So the Sunnis weren't 
participating in the political system. The Shia death squads 
were out there fighting.
    Now we are actually talking about the problems that are 
associated with a unity government under Prime Minister Maliki. 
The Sunnis there are disaffected groups, but the Sunnis have 
bought into the basic premise of the political system in Iraq. 
The same thing is true of the Shia. The same thing is true of 
the Kurds.
    That doesn't mean we have a hydrocarbon law. That doesn't 
mean that we have a solution or Kirkuk because they are going 
to be continuing and doing problems on the political side in 
Iraq.
    I do think that as those problems get smaller and smaller 
as the security forces in Iraq get better and better, the 
American commitment necessary is getting smaller and smaller. 
So now we are talking about going maybe down to 10,000 troops, 
instead of even the 47,000 we have there now. And I don't think 
that those would necessarily need to be there very long term. 
Even in terms of cost, by 2014, given increased oil revenues, 
Iraq should be able to pay for its military, which is the first 
time since 2003.
    So I do think that both on the cost side and the resource 
commitment side by the United States, you will see a downward 
trend, but it can't be a cliff because if you hit the cliff and 
the resources the United States is providing go to zero, then 
those remaining political problems suddenly take on a much 
bigger character.
    Mr. Chabot. The gentleman's time has expired. We are going 
to go to a second round now. And I will recognize myself for 5 
minutes. Mr. Eisenstadt, as I said, I will go to you next.
    In your testimony, you suggested a comprehensive national 
reconciliation process to stave off domestic tensions. Could 
you please kind of elaborate on this suggestion? And what 
issued would be encompassed in this? What can the U.S. do to 
facilitate this?
    Mr. Eisenstadt. Yes. I mean, there are various models that 
have been practiced in various places around the world. And 
they often have common elements, such as truth commissions and 
partial justice for victims and symbolic punishment for 
perpetrators and the like. I don't see that this is going to 
happen any time soon in Iraq. I just think it is very 
important. And I am not sure, actually, whether the U.S. 
Government should play a lead role in these efforts.
    I actually worked these issues when I worked in the Embassy 
with the U.S. forces headquarters last year in Iraq. And it may 
be that international and Iraqi NGOs played the lead on this 
until you have farsighted political leadership, such as an 
Iraqi Mandela, not to be glib. And really farsighted 
magnanimous leadership is really a sine qua non for all of 
these kinds of reconciliation processes. And, you know----
    Mr. Chabot. Can I stop you there for just a second?
    Mr. Eisenstadt. Sure, sure.
    Mr. Chabot. No. Go ahead. I will do it later.
    Mr. Eisenstadt. And I think, you know, again, it would be 
desirable to have people have done, kind of have a plan on hand 
so that if conditions permit 5, 10, 15, or 20 years down the 
road--and let's keep in mind a lot of national reconciliation 
processes don't occur right after a country's civil war, 
though. It usually happens 5 or 10 years down the road. We have 
a plan in hand. That is all.
    Mr. Chabot. I wanted to let you finish your thought here, 
but you talked about a dynamic natural leadership figure, 
somebody like a Mandela or something.
    I remember--and this is getting a little off the topic here 
because we are on Iraq, but Afghanistan is clearly something 
that is important. And the President just made an important 
speech last night, some of which I agree with, other things I 
didn't.
    I remember what some folks were saying about Karzai and 
Afghanistan. You know, he seemed to be--Max, I see you are 
nodding. So feel free to jump in here. But some people when 
they first look at him seem to think that perhaps he was that 
type of figure, didn't seem to be somebody that was corrupt. 
And his father I believe had been murdered by the bad guys. And 
it is kind of an interesting history, but as it turns out, it 
hasn't gone so well. So you can handle that or, Mr. Boot, if 
you would like to, I would be interested to hear what you might 
think about that.
    Mr. Boot. Well, I mean, I share with Michael a desire to 
have an Iraqi Nelson Mandela or an Iraqi George Washington or 
Konrad Adenauer, you know, somebody wonderful. I think your 
comment is a reminder that we shouldn't invest too much in the 
personal angle. I mean, I remember exactly what they are 
talking about.
    I remember, you know, sitting around in Baghdad around 
2007. Everybody was sort of commiserating, saying, ``Geez, if 
only we had a Hamid Karzai in Iraq. Everything would be so 
wonderful. Why are we dealing with a schmuck like Maliki?''; 
you know.
    And now, of course, Maliki is starting to look pretty good 
by comparison with Karzai. And, in fact, the two countries in 
many ways have flipped positions where Afghanistan used to be 
the success story and Iraq was the basket case. Now it is a 
little bit more the other way around.
    I think there are several lessons we can draw from that. 
One is that neither failure nor success is perpetual. And 
something that looks pretty stable now can look not so hot 1 or 
2 years down the line if we take our eyes off the ball but also 
that we shouldn't invest too much in the personal angle.
    And we need to build stronger institutions. And I think one 
of the--it takes a while for that to emerge. And we shouldn't 
expect that a wonderful person will suddenly take over Iraq and 
transform it overnight. We really need our stable institutions.
    One of the most stable and viable institutions there is the 
U.S. military. And I think it will be for a number of years to 
come.
    Mr. Chabot. And I only have a short period of time. So let 
me ask the panel one other topic here relative to Iran. I mean, 
I think that is one of the things when people go back. We were 
in Saudi Arabia recently. And they are, of course, concerned 
that they are being kind of encircled by Iranian influence.
    Iranian influence is growing in the region. And others had 
argued about Iraq being a buffer against Iran. Does anybody 
want to comment on just the concept that how the world has 
changed relative to Iran and what, if anything, at this point--
you know, we are 10 years later now. What can be done in 10 
seconds to make sure that Iran doesn't continue to flex its 
muscles in that part of the world?
    Ms. Cochrane Sullivan. Well, I think one of the biggest 
things is recognizing the role that Iraq plays in balancing 
Iranian influence and having a strong partnership between the 
United States and Iraq in doing so.
    I think that the Iranians would like to have an Iraq that 
is sympathetic to their interests. I think that Iraq could play 
an important role for the Iranians in helping to elude 
sanctions given the economic importance of Iraq.
    So I think that Iraq has to be viewed as a central 
component to any strategy in the region when you are looking at 
balancing against Iran.
    Mr. Chabot. Okay. Thank you very much. My time has expired.
    The gentleman from New York is recognized, the ranking 
member.
    Mr. Ackerman. Thank you very much. Congratulations on your 
anniversary.
    Mr. Chabot. Thank you very much.
    Mr. Ackerman. My wife and I celebrated our 44th 3 weeks 
ago. And she reminded me the only reason we have lasted that 
long, despite the fact we have been married 44 years, we have 
only been together 6.
    [Laughter.]
    Mr. Chabot. Congratulations.
    Mr. Ackerman. Thank you. Tough business.
    I was listening to the gentleman from New York's very, as 
usual, astute comments and his recollection of Mr. Chalabi. And 
it just seems that I would remind us all that in the Middle 
East, more people seem to have risen from the dead than 
originally suspected.
    I want to go back to the relationship between Iran and 
Iraq. Instead of just acknowledging that there is a flirtatious 
relationship and looking at the reasons for why that is 
happening, it certainly is not in our interest, I think we 
would all agree, for that to develop in any meaningful way.
    What do we do from a strategy point of view to convince the 
Iraqis that that might be not in their best long-term interest, 
or should we just sit by and let that develop, which is not 
something that I believe?
    Mr. Fontaine. Well, Congressman, I think one of the things 
that we can do as linked to what we have been talking about 
thus far, the continued American military presence. A number of 
I think the panelists have noted that Iraq doesn't have the 
capacity right now to defend its borders without help from the 
U.S. military.
    Now, that is not--we don't fear an Iranian invasion of 
Iraq, but to the extent to which Iran feels like it has a free 
hand in the border areas with Iraq, then that makes coercive 
diplomacy against Iraq that much more successful. It makes 
their ability to play interactive politics a little bit easier 
than it would be otherwise.
    So to show the Iraqis that they have alternatives to 
Iranian pressure, Iranian influence in their politics I think 
would be a good starting point and a good way for the United 
States to think about one aspect of its continued role there.
    Mr. Eisenstadt. If I could just add to that? My comment 
about the American business trade and investment in Iraq, in 
part, was directed toward strengthening the Iraqi economy so 
that there wasn't this kind of uneven dependent relationship 
where the Iraqi economy is weak and vulnerable, in part, 
because of policies that the Iranian Government is pursuing in 
terms of dumping subsidized agricultural products and consumer 
goods and the like.
    Now, we have to realize and recognize there is always going 
to be trade between Iran and Iraq because of proximity, because 
of certain things that Iran produces meets the needs of Iraq's 
consumer markets in a way that we can't. But we need to build 
up to the degree that we can Iraq's economy, particularly the 
oil and defense sector. Let me just also say--and that will 
enable them to have the strength in order to push back on Iran 
in the future.
    Another thing I think that is vitally important, in talks 
with people in Iraq in the past, when I asked them, ``What is 
the most effective means of countering Iranian influence?'' 
they say, ``Information operations.''
    And so I would urge that the public diplomacy section of 
the Embassy in Baghdad be augmented by a military information 
support team. We have military information support teams in 
Embassies throughout the region and in other parts of the 
world.
    I don't know what the plans are right now. I don't believe 
there is one there yet. And I think it would be very desirable 
for the public diplomacy section to be augmented by military 
people who are specialized in information operations in order 
to shed light on how Iran operates in Iraq because, again, 
there is I think a real appetite for this among the Iraqi 
public. And I think that is a way of again kind of limiting 
Iranian influence by showing how they operate and with whom 
they operate.
    Mr. Boot. Just add one very fast point. Also, I mean, one 
of the real capabilities that the U.S. military has there is 
intelligence gathering. So we can just figure out what the 
Iranians are actually up to. We have great situational 
awareness with 47,000 human sensors on the ground. And that's 
one of the things I am really worried about is they are free to 
climb to zero.
    We are not even going to know what the Iranians are up to 
because it is going to be very hard for the State Department 
and the CIA and other civilian agencies to fill the gap and the 
intelligence gathering, which is a prerequisite for effective 
operations to counter the Iranian influence.
    Ms. Cochrane Sullivan. I actually just want to follow up 
with two quick points on Max's comment. The attacks against 
U.S. forces in our Embassies has been increasing in recent 
weeks. And they primarily have been by Iranian backed groups.
    Given the risk aversion of the diplomatic security corps, 
one that is heavily reliant on contractors, I am very concerned 
that if things start heating up a bit more and the Embassy or 
consulates are coming under attacks, that they are not going to 
be getting out when they need to get out most. And they are 
going to lost the visibility that they need to understand what 
is happening just beyond the gate.
    The other thing, finally, is just the United States is, 
arguably, one of the only or the only country in the region 
that actually wants Iraq to flourish, that wants Iraq to be 
strong. And I think that is a powerful argument, not just on 
what capabilities Iraq would be losing for the United States 
leaving but what capabilities it could gain.
    Mr. Ackerman. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    I'm sorry. The gentleman from Pennsylvania, Mr. Marino, did 
you have any questions? No questions? Okay. Well, thank you for 
coming.
    The gentleman from New York is recognized if he would like 
to ask some more questions for 5 minutes.
    Mr. Higgins. On the issue of revenues, I think Ms. Sullivan 
indicated that the Iraqis are going to pay for a security 
component of this. I apologize, Mr. Fontaine.
    Mr. Fontaine. The projections are that under the augmented 
oil production that is starting to take place now and that will 
continue through about 2014, then the projection I believe is 
that Iraq will able to control its armed forces by 2014.
    Now, that is separate from being able to control their air 
space, for example, because just the length of time it takes to 
train fighter pilots and so on is longer than that period of 
time. but in terms of actual financial resources, it should be 
2014 is my understanding.
    Mr. Higgins. Any discussions about their participation in 
financing to continue the American military presence?
    Mr. Fontaine. I have seen Americans say that. I have not 
seen any Iraqis say that other than to object strenuously to 
that idea.
    Mr. Higgins. I see. In terms of Prime Minister Nouri al-
Maliki and his progress with the unity government, any 
substantial progress relative to the other issues that we have 
talked about, including sharing of oil revenues, for any of 
you?
    Ms. Cochrane Sullivan. I haven't seen much dialogue on that 
since the government is formed, although I know it is an issue 
that particularly the Kurds are going to want to see movement 
on. But I haven't seen any.
    Mr. Higgins. Okay. I have no more questions. I yield back.
    Mr. Chabot. Okay. Thank you. The gentleman yields back.
    That concludes the questioning by the panel members up here 
this afternoon. We want to thank the witnesses for their 
testimony. It has been very helpful for the committee. We 
appreciate it very much.
    And, without objection, members will have 5 days to submit 
additional statements for the record. If there is no further 
business to come before the committee, we are adjourned. Thank 
you very much.
    [Whereupon, at 3:21 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
